5 65
IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

MARY JO WEIDRICK, Petitioner/Plaintiff
v.

PRESIDENT DONALD J. TRUMP et al, Respondents/
Defendants

MOTION FOR LEAVE TO FILE PETITION
Mary Jo Weidrick hereby respectfully moves the Court for
Leave to file the Petition submitted herewith.
In support of her Motion, the Petitioner asserts that her claims
as set forth are true, her claims are serious and dignified, and there is no
alternative forum in which adequate and complete relief may be obtained.
For the reasons more fully set forth in the pleading, Petitioner respectfully
requests her Motion for Leave to File Petition and Motion be granted.

0
Resp ectfullv submitted,

1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

!

QUESTIONS PRESENTED
1.) Whether this case is “frivolous” as claimed and dismissed by the United
States District Court for the Southern District of New York ON 4/27/20.
2.) Whether Petitioner’s First, Fifth, Sixth, Ninth Amendment rights to counsel
are “attached” or otherwise violated during this “adversarial” 30+ years of
Respondents’ terrorism of Petitioner which Respondents euphemistically call
“investigation” or “national security matter” wherein they illegally and
unconstitutionally engage in acts of terrorism against Petitioner by violently
raping her brain 24/7, etc. and daily forge pro-terrorism materials making it
appear they originate from Petitioner; then unconstitutionally and illegally
issuing Executive Orders (or similar instruments) falsely claiming “national
security” or “investigation”; then threaten to arrest Petitioner’s attorney of 23 years, Mark J. Geragos, if he confers with her for purposes of protecting her
' from these violent Respondents, named and unnamed, by stopping all planks
of terrorism against Petitioner.
3.) Whether Petitioner and her attorney, Mark J. Geragos, can confer
immediately and BEFORE the other matters listed herein are addressed by
this court so that: Plaintiff is properly represented; this court receives the
pleadings from an attorney who understands the legal process, terminology
and can make oral arguments properly...
4.) Incorporating herein the facts and allegations outlined in Question 2 above,
whether Petitioner and the SDNY; State of NY; Manhattan DA and any other

\

group or individual investigating and trying to stop this terrorism and
properly prosecute Respondents, named and unnamed, can safely interview
or confer immediately with Petitioner.
(The primary purpose of these pleadings is to allow Petitioner to confer with her
attorney—and legitimate prosecutors specifically Manhattan DA; SDNY; State of
NY. Petitioner does not believe she has the capability to be able to sufficiently
present and argue her total case; nor access to any attorney. However, she has
stated herein more of her case as context for the necessity and urgency of conferring
with her attorney immediately as well as speaking with the legitimate prosecutors
mentioned herein asap. Therefore, the following questions may be better suited
presented and addressed by Petitioner’s attorney and/or the fisted legitimate
prosecutors once allowed to confer or speak with Petitioner.)
5.) Whether Respondents can be made to cease and desist from all planks of this
terrorism temporarily whether enumerated herein or not which violate the
Constitution and laws stated herein until Petitioner is allowed to confer with
Mr. Geragos, and the SDNY; State of NY; Manhattan DA who will file the
appropriate pleadings to stop all planks of terrorism against her.
6.) Whether POTUS, Congress, AG Barr et al are acting in their personal
capacities in preventing Mr. Geragos (also the SDNY; State of NY;
Manhattan DA et al) from conferring with her and forging pro-terrorism
materials, not in legitimate executive or legislative activities thus are not
immune from prosecution and civil actions while in office.

v v

w

PARTIES TO THE PROCEEDINGS
A. Petitioner, who is not an attorney: Mary Jo Weidrick
1300 S. Rhodes Avenue
Sarasota, FL 34239
941-316-0273
B. Respondents: Donald J. Trump
President of the United States
The White House
1600 Pennsylvania Avenue, NW
Washington D.C. 20500
William P. Barr
United States Attorney General
Department of Justice
950 Pennsylvania Avenue, NW; Rm. 5616
Washington D.C. 20530-0001
United States Congress
do Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW; Rm. 5616
Washington D.C. 20530-0001
Their attorney of record by SDNY: Benjamin H. Torrance
Asst. U. S. Attorney for
the Southern District of New York
86 Chambers Street
New York, NY 10007

i \ \

TABLE OF CONTENTS
QUESTIONS PRESENTED

Page
,1

PARTIES TO THE PROCEEDINGS

111

INDEX OF APPENDICES

,v

TABLE OF AUTHORITIES

vi

OPINIONS BELOW.

1

PETITION FOR WRIT OF CERTIORARI BEFORE
JUDGMENT TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND DISTRICT...................

1

JURISDICTION

1

RELEVANT CONSTITUTIONAL & STATUTE
PROVISIONS...........................................................

1

STATEMENT OF CASE

6

REASONS FOR GRANTING THE PETITION

18

CONCLUSION

20

w

INDEX OF APPENDICES
Appendix A.

Petitioner’s Complaint filed in the U.S. District Court for
The Southern District of New York, dated 1/30/2020 and
filed early February 2020.

Appendix B.

Judge’s Order and Judgment, U. S. District Court for the
Southern District of New York, dated 4/27/20
dismissing Plaintiffs case.

Appendix C.

Notice of Appeal in the U.S. District Court for the
Southern District of New York dated 5/19/20.

Appendix D.

Petitioner’s Brief received by U. S. Court of
Appeals for the Second Circuit on 8/10/20 according to
USPS Priority mail service.

\A

TABLE OF AUTHORITIES
Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics,
403 U. S. 388 (1971).....................................................................

P. 18

Clinton v. Jones, 520 U. S. 681 (1997)

P. 15

Escobedo v. State of IL, 378 U. S. 478 (1964)

P. 11

Gideon v. Wainwright, 372 U. S. 335 (1963)

P. na

Jones v. Clinton, 72 F.3d 1354 (8th Cir.)

P. 14

Jones v. Clinton, 990F Supp. 657 (E.D. Ark 1998)

P. 15

Trump v. Vance, (SCOTUS Docket No. 19-635)

P. 16

U. S. v. Nixon, 418 U. S. 683 (1974)

P. 13

Youngstown Sheet & Tube v. Sawyer, 343 U.S. 579 (1952)

P. 12

Zervos v. Trump, Sup. Ct. of State of NY; Part 57; Index
No. 1505522/17 (Judge’s Order signed 3/20/18)............

P. 15

Vi

PETITION FOR A WRIT OF CERTIORARI
BEFORE JUDGMENT
Petitioner respectfully requests her prayers in her Emergency Application
to Justice Thomas be granted and Petitioner respectfully petitions for a writ
of certiorari before judgment to the United States Court of Appeals for the
Second Circuit.

OPINIONS BELOW
None known.

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1), 28 U.S.C. Sec. 1651 and 28 U.S.C. 2101(e).

RELEVANT CONSTITUTIONAL and STATUTE PROVISIONS
18 U.S.C., Sec. 371- Conspiracy to commit offense or to defraud United
States

Page 16

If two or more persons conspire either to commit any offense against the
United States, or to defraud the United States, or any agency thereof in any manner
or for any purpose, and one or more of such persons do any act to effect the object of
the conspiracy, each shall be fined under this title or imprisoned not more than five
years, or both.
If, however, the offense, the commission of which is the object of the
conspiracy, is a misdemeanor only, the punishment for such conspiracy shall not
exceed the maximum punishment provided for such misdemeanor.
18 U.S.C., Sec. 373(a). Whoever, with intent that another person engage in
conduct constituting a felony that has as an element the use, attempted use, or

5*

threatened use of physical force against property or against the person of another in
violation of the laws of the United States, and under circumstances strongly
corroborative of that intent, solicits, commands, induces, or otherwise endeavors to
persuade such other person to engage in such conduct, shall be imprisoned not more
than one-half the maximum term of imprisonment or (notwithstanding section
3571) fined not more than one-half of the maximum fine prescribed for the
punishment of the crime solicited, or both; or if the crime solicited is punishable by
life imprisonment or death, shall be imprisoned for not more than twenty
years
P. 16

18 U.S.C., Sec. 1031 - Major Fraud Against the United States
(a.)

Page 16

Whoever knowingly executes, or attempts to execute, any scheme or
artifice with the intent—
(1) To defraud the United States; or...”

(c) The maximum fine imposed upon a defendant for a prosecution
including a prosecution with multiple counts under this section shall not
exceed $10,000,000.
(d) Nothing in this section shall preclude a court from imposing any other
sentences available under this title, including without limitation a fine up to
twice the amount of the gross loss or gross gain involved in the offense
pursuant to 18 U.S.C. Sec. 3571(d).
(e) In determining the amount of the fine, the court shall consider the
factors set forth in 18 U.S.C. Sections 3553 and 3572, and the factor’s set
forth in the guidelines and policy statements of the United States Sentencing
Commission, including—
(1) the need to reflect the seriousness of the offense, including the
harm or loss to the victim and the gain to the defendant;
(2) whether the defendant previously has been fined for a similar
offense; and
(3) any other pertinent equitable considerations...”

3\

18 U.S.C. 1503 - Obstruction of Justice

Page 16

Defines “obstruction of justice” as an act that ‘/corruptly or by threats or force,
or by any threatening letter or communication, influences, obstructs or impedes, or
endeavors to influence, obstruct or impede the due administration of justice.”
18 U.S.C. 1509 - Obstruction of court orders

Page 16

Whoever, by threats or force, willfully prevents, obstructs, impedes, or
interferes with or willfully attempts to prevent, obstruct, impede, or interfere with,
the due exercise of rights or the performance of duties under any order, judgment,
or decree of a court of the United States, shall be fined under this title or
imprisoned not more than one year, or both.
No injunctive or other civil relief against the conduct made criminal by this
section shall be denied on the ground that such conduct is a crime.
18 U.S.C., Sec. 1512 - Tampering with a witness, victim, or an informant.
Page 16
18 U.S.C. Sec. 1513 - Retaliation against a witness

Page: na

18 U.S.C., Sec. 1623 - False declarations before grand jury or court.
Page 16
42 U.S.C., Sec. 1983 - Civil Action for deprivation of rights..Page 17
42 U.S.C., Sec. 1985 - Conspiracy to interfere with civil rights.
Page 17
Sec. 802, Patriot Act. (Pub. L. No. 107-52)

Page 16

Expanded “terrorism” to cover “domestic terrorism”. A person engages in domestic
terrorism if they do an act “dangerous to human life” that is a violation of the
criminal laws of a state or the United States if the act appears to be intended to: (i)
intimidate or coerce a civilian population; (ii) influence the policy of a government
by intimidation or coercion or (iii) to affect the conduct of a government by mass
destruction; assassination or kidnapping. The acts must also occur primarily within
the territorial jurisdiction of the United States.

3,

Art. I, Sec. 2. Speaker Impeachment. The House of Representatives shall chuse
their Speaker and other Officers and shall have the sole power of
impeachment,
P.17
Art. I, Sec. 3. The Senate shall have the sole Power to try all Impeachments.
When sitting for that Purpose, they shall be on Oath or Affirmation. When the
President of the United States is tried, the Chief Justice shall preside; And no
Person shall be convicted without the Concurrence of two thirds of the Members
present.
Judgment in Cases of Impeachment shall not extend further than to remove
from Office, and disqualification to hold and enjoy any Office of honor, Trust or
Profit under the United States; but the Party convicted shall nevertheless be liable
and subject to Indictment, Trial, Judgment and Punishment, according to law. P.17
Art. I, Sec. 8. Necessary and Proper Clause. To make all Laws which shall be
necessary and proper for carrying into Execution the foregoing Powers, and all
other Powers vested by this Constitution in the Government of the United States, or
in any Department or Officer thereof.
P. 17
Art. II, Sec. 1. “...[In case of Removal of the President from Office, or of his
Death, Resignation or Inability to discharge the Powers and Duties of the said
Office, the same shall devolve on the Vice President, and the Congress may by Law
provide for the Case of Removal, Death, Resignation or Inability, both of the
President and Vice President, declaring what Officer shall then set as President,
and such Officer shall act accordingly, until the Disability be removed, or a
President shall be elected.]
P. 17
Art. II, Sec. 1. Oath of Office. “...Before he enter on the Execution of his Office,
he shall take the following Oath or Affirmation — “I do solemnly swear (or affirm)
that I will faithfully execute the Office of President of the United States, and will to
the best of my Ability, preserve, protect and defend the Constitution of the United
States.”
Page 17
Art. II, Sec. 3. (President) Take care clause, “...he shall take care that the
Laws be faithfully executed,...”
Page 17
Art. VI. Supreme Law of the Land. “...This Constitution and the Laws of the
United States, which shall be made in Pursuance thereof; and all Treaties made, or
which shall be made, under the Authority of the United States, shall be the
Supreme Law of the Land; and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to the contrary
notwithstanding.”
Page 17

Art. VI. Oath to Support Constitution. “The Senators and Representatives
mentioned, and the Members of the several State Legislatures and all executive and
judicial Officers, both of the United States and of the several States, shall be bound
by Oath or Affirmation, to support this Constitution...”
Page 17
Judiciary Act of 1869

Page na

Judiciary Act of 1891

Page na

First Amendment

Pages 12, 20, 21

Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
Fourth Amendment

Pages 13, 21

The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.
Fifth Amendment

Pages 13, 21

No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger, nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
Sixth Amendment,

Pages 11, 12, 20

In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with

5'

the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defence.
Ninth Amendment

Page 13, 21

The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
Fourteenth Amendment

Page 19

Section 1. All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

STATEMENT OF CASE
1.

The United States District Court for the Southern District of New York

dismissed Petitioner’s case as “frivolous” on April 27, 2020. Petitioner is confident
this Court is familiar with this case and has the necessary evidence indicating this
case is based in fact and is not frivolous.
2.

The case in short: Respondents have terrorized and tortured Petitioner 24/7

for over 30 years by violently raping her brain 24/7 with mind-reading equipment
and sexually assaulting her and engaging in many more planks of terrorism, some
of which are listed below. The first purpose of this action is to allow Petitioner’s

(i *

attorney of 2-3 years, Mark J. Geragos, to confer with her immediately, which he
has never been allowed to do, so he may take sill necessary actions to immediately
protect Petitioner from Respondents, named and unnamed, including but not
limited to filing immediate pleadings to stop all planks of this violent 24/7
terrorism.
3.

This action is also to allow the SDNY; State of New York, Manhattan DA or

any other legitimate investigator and prosecutor to immediately confer with,
interview, speak with Petitioner which they have not been allowed to do for the
same reasons set out in #2 and #5 above.
4.

There are many more planks of terrorism including but not limited to:
a.) Use national TV media et al based primarily in NYC, but 1,000’s located
around the World, to violently rape, sexually assault and slander, make fun
of Plaintiff 24/7 since 10/31/89;
b.) Use local TV media where Plaintiff resides to daily air CIA/FBI smear
campaigns against her, including photo-shopping her in various
inappropriate activities, thereby recruiting local citizens to participate in this
terrorism;
c.)

Use CIA, FBI, DOJ, seemingly all federal intelligence agencies and

other unnamed co-conspirators such as Facebook, possibly Amazon,
neighbors, strangers around the World et al to daily forge pro-terrorism
materials making it appear they originate from Plaintiff to keep this

1

terrorism alive solely for their entertainment, now to avoid long prison terms,
public humiliation, being substantially sued;
d.)

Have a few CIA, FBI or other participating terrorists who rape

Plaintiff also stalk her wherever she goes, to her knowledge, 24/7 since
10/31/89;
e.)

Recruit governors (including FL’s, TN’s and NY’s) and other state

officials including state Attorneys General (not NYs), city council members,
mayors, local law enforcement where Plaintiff resides to engage in this
terrorism actively or by complicity.
f.)

Of those attorneys who believed Plaintiff, Plaintiff believes Defendants

persuade any attorney Plaintiff tried to hire over the past 30+ years to
participate in this terrorism or engage in complicity by refusing to help
Plaintiff thereby keeping this terrorism alive.
5.

It took Petitioner an estimated 28 years to find an attorney to help her stop

this terrorism— she found Mark J. Geragos 2-3 years ago. However solely due to
Respondents’ deliberate unlawful and unconstitutional acts, Mr. Geragos and
Petitioner have never conferred. Petitioner emails him on his website most
weekdays; Mr. Geragos and team go before the Supreme Court of the United States
(hereinafter SCOTUS) or a Grand Jury where he prevails (also now done by SDNY;
State of NY; Manhattan DA et al). As stated in #4 above, in order to keep the
terrorism alive for their continued personal enjoyment, now to avoid prison and
being substantially sued, President Trump, Attorney General Barr, Congress and

other unnamed co-conspirators et al daily forge pro-terrorism materials making it
appear they come from Plaintiff, then illegally and unconstitutionally issue
Executive Orders (or some other instrument) pretending this terrorism is a
“national security” matter or a criminal “investigation” of Petitioner and threatens
to arrest Mr. Geragos (SDNY; State of NY; Manhattan DA et al) if he (they)
confer(s) with Petitioner. Respondents “contract” the forging of some of the pro­
terrorism materials with Facebook, other social media networks, neighbors,
strangers around the World et al promising them they will never go to prison or be
substantially sued for their participation in the terrorism and intentional slow
killing of Petitioner. They could possibly receive other benefits for their
participation.
6.

Solely because of Respondents’ violent 24/7 actions of 30+ years which are

partially described herein, Petitioner has not been able to get an advanced degree,
work professionally, date, marry, have children, have friends, play tennis,
volunteer, have conversations with others who are not participants therefor has no
conversations for 30+ years. She is not able to think well and has extreme difficulty
for over 30 years reading a book or papers for content and retention; has had
difficulty going out in public due to the more violent terrorists mostly in the first 20
years of this terrorism; is forced to five near poverty on disability — they are
violently raping her brain 24/7—they have obviously taken more than her
constitutional and legal rights and freedoms. This terrorism is inhuman.

3

ARGUMENT
7.

By rejecting Petitioner’s/Appellee’s factual assertions, by denying discovery

depositions, etc., the district court erroneously drew inferences. The Court
evaluated Petitioner’s credibility and improperly resolved factual issues. Therefore,
the Court erred by dismissing the Complaint.
8.

Because the members of Congress are participants, POTUS and

Congressional terrorists are not impeached, the primary constitutional remedy.
9.

Because most law enforcement from the USAG down to local police where

Plaintiff resides are participants in this terrorism, POTUS, USAG Barr, Congress
et al have not been indicted; but now possibly are as the SDNY; State of NY;
Manhattan DA et al recently became involved.
10.

The national TV and print media are (currently unnamed) co-conspirators in

this case, thus this terrorism is not made public for the citizens of the United States
to become informed, enraged and stop it.
POINT I
11.

There is no “national security” issue or legitimate “investigation” of Plaintiff

by Defendants. These are euphemisms for this violent terrorism. Defendants have
willfully, with criminal intent, forged all pro-terrorism materials attributed to
Plaintiff for 30+ years for the purposes of terrorizing and torturing Plaintiff 24/7

solely for their personal entertainment and now to avoid criminal prosecution and
being substantially sued.
POINT II
12.

Petitioner and her attorney since June 2017, Mark J. Geragos, have

never conferred solely due to Respondents’ et al unconstitutional and illegal
activities of daily forging pro-terrorism, etc. material making it appear they
originate from Petitioner, then daily issuing unconstitutional and illegal Executive
Orders (or other instrument) falsely claiming this is a “national security” matter or
“investigation” of Petitioner; then threatening to arrest Mr. Geragos if he confers
with Petitioner. Respondents’ actions violate Petitioner’s Sixth Amendment right to
counsel. Respondents’ fabricated criminal “investigation” of Petitioner is merely a
euphemism for 30+ years of this terrorism; they will not charge her with a
legitimate national security crime as she has not committed one—again, all pro­
terrorism materials are fabricated by Respondents or those they “contracted” with.
In Escobedo v. State of IL, 378 U.S. 478 (1964), the Supreme Court of the United
States established the right to counsel begins when a legitimate investigation is no
longer a general inquiry but focuses on one particular “suspect”. If Respondents are
legitimately “investigating” Petitioner, she should have had access to Mr. Geragos
when he became her attorney in years ago.
13. Incorporating herein the facts and allegations outlines in #12 above,
Respondents also use these forged pro-terrorism materials to unconstitutionally and
illegally threaten to arrest the SDNY; State of NY and Manhattan DA if they confer

\U

with or interview Petitioner solely to avoid prosecution, being publicly disgraced,
imprisonment for long periods of time and being substantially sued..
14.

Preventing Plaintiffs attorney from conferring with her as well as

preventing the SNDY, State of NY, Manhattan DA et al from speaking to her, also
denies Plaintiff her First Amendment rights of free speech; and hence access to the
courts.
15. In Youngstown Sheet Metal v. Sawyer, 343 U.S. 579 (1952), SCOTUS
overturned an Executive Order issued by President Truman opining that the
President had no power to act except in cases expressly or implicitly implied by the
Constitution or by Congressional legislation
POINT III
PLAINTIFFS OTHER SIXTH AMENDMENT RIGHTS ARE DENIED
HER.
16.

Violating Plaintiffs Sixth Amendment right to face her accusers.
Defendants’ deliberate actions also deny Plaintiffs Sixth Amendment

right to face her accusers; Plaintiff has filed several lawsuits against Defendants
over the past 30+ years of this terrorism; all have been thrown out as “frivolous”,
“without merit”, etc.; then Defendants continue to deny her access to her attorney,
the courts and now prosecutors.
17.

Violating Plaintiffs Sixth Amendment right to the “evidence” against

her.

u.

Defendants have also deliberately denied Plaintiffs Sixth Amendment right to the
“evidence” against her which is all the pro-terrorism etc. materials that exist—as
Defendants have forged them. Plaintiff has never engaged in any pro-terrorism
activities therefore has no evidence of such.
a.) In United States v. Nixon, 418 U.S. 683 (1974), SCOTUS held
that a claim of Executive Privilege as to materials subpoenaed for
use in a criminal trial cannot override the needs of the judicial
process if that claim is based not on the grounds that military or
diplomatic secrets are implicated, but merely on the ground of a
generalized interest in confidentiality.
In Petitioner Weidrick’s case, as Respondents have recruited
100’s to 1,000’s of people in the U.S. and around the World
including seemingly all national TV media and their guests to
participate in this violent rape and sexual assault and other planks
of this terrorism, they have forfeited any claim of “national
security” or “military secrets”.
POINT IV
18. Plaintiffs other constitutional and legal rights are being violated.
Defendants’ actions stated herein also violate, at minimum, Plaintiffs
Fourth, Fifth, Ninth Amendment rights and a myriad of legal rights all to be
argued by her attorney once allowed to confer as well as argued by the legitimate
prosecutors at the Manhattan DA’s office; SDNY; State of NY.

POINT V
19.
PRESIDENT DONALD TRUMP, THE EXECUTIVE BRANCH;
USAG BARR AND EACH MEMBER OF CONGRESS ARE ACTING IN
PERSONAL CAPACITIES using the power of their offices for this
terrorism —NOT IN LEGITIMATE EXECUTIVE AND LEGISLATIVE
ACTIVITIES; THEREFORE ARE NOT IMMUNE FROM PROSECUTION
AND CIVIL ACTIONS WHILE IN OFFICE.
A.)

Petitioner believes the SDNY, State of NY, Manhattan DA et al are
attempting to prosecute Respondents, named and unnamed, and have
possibly convened a Grand Jury wherein indictments have already
been issued or will be. However, as stated herein, named and
unnamed Respondents continue to daily unconstitutionally and
illegally forge pro-terrorism materials somehow “attaching” them to
Petitioner; then unconstitutionally and illegally issue E.O.’s (or similar
instruments) and unconstitutionally and illegally threaten to arrest
prosecutors for attempting to prosecute them so as to avoid being
removed from office; long prison terms and being substantially sued.

B.)

In Jones v. Clinton, 72 F.3d 1354 (8th Cir.), the U. S. Court of
Appeals for the Eighth Circuit ruled in favor of Jones finding “...the
President, like all other government officials, is subject to the same
laws that apply to all other members of our society” and further stated
a civil court case “...appears to us highly unlikely to occupy any
substantial amount of (the President’s) time.”
A criminal case may occupy the President’s time; however, the
cost of his criminal activity to Petitioner, to society and to our

democracy outweigh the cost of a President’s time, particularly when
he/she engages in continued violent criminal activity and deliberately
thwarts the system designed to stop him/her solely to avoid the
consequences of his/her actions.

C.)

In Clinton v. Jones, 520 U. S. 681 (1997), SCOTUS found a
sitting President wasn’t immunized from civil litigation in
federal court arising out of acts he took before assuming office.

D.) SCOTUS unanimously affirmed the Court of Appeals decision (id.) and
further ruled that separation of powers does not mandate that federal
courts delay all private civil lawsuits against the President until the
end of his term of office
E.)

The U.S. District Court Judge granted summary judgment
in Jones v. Clinton, 990F Supp. 657, (I.D. Ark 1998).
1.) This case led to the District Court’s hearing of Jones v. Clinton
(id.) which led to the Lewinsky scandal when President Clinton was
asked under oath about other workplace relationships which led to
charges of perjury and obstruction of justice and the impeachment
proceedings against President Clinton.

F.)

In Zervos v. Trump, Sup. Ct. of State of NY; Part 57; Index
No. 150522/17 (Judge’s order signed 3/20/18), the Judge ruled
“No one is above the law. It is settled that the President of the
United States has no immunity and is “subject to the laws” for
purely private acts (Clinton, 520 U. S. at 696).”
1.) The judge cited other reasons and ruling as laid out in Clinton v.
Jones (id).

1^<

2.) The judge denied President Trump’s request to dismiss the civil
action of defamation against him as well as denying a stay for the
duration of the Trump presidency.
G.)

In Trump v. Vance, (SCOTUS Docket No. 19-635) SCOTUS
issued a7-2 ruling on 7/9/20 that neither Article II of the
Constitution nor the Supremacy clause in Article VI immunizes
a sitting POTUS from a criminal investigation by a State Grand
Jury.
POINT VI

Defendants, via the few planks of this terrorism as described
herein violate at minimum, statutes:
20.

1.) Conspiracy to commit offense or to defraud United States under 18 U.S.C.,
Sec. 371;
2.) Conspiracy to commit a crime of violence under 18 U.S.C. Sec. 373(a);
3.) Terrorism under Sec. 802 of the Patriot Act;
4.)
Making false declarations before grand jury or court under 18 U.S.C.
Sec. 1623;
5.)

Tampering with a witness, victim or an informant under 18 U.S.C., Sec.
1512;

Threatening to kidnap Plaintiff, her attorney, the SDNY, State of NY
prosecutors should they confer under possibly federal kidnapping statute 18
U.S.C. 1201 or state kidnapping statutes;

6.)

Obstruction of justice — as an act that “corruptly or by threats or
force, or by any threatening letter or communication, influences, obstructs or
impedes or endeavors to influence, obstruct or impede the due administration of
justice under 18 U.S.C. Sec. 1503.
7.)

8.) Obstruction of court orders under 18 U.S.C. 1509;
9.) Major Fraud Against the U. S. under 18 U.S.C., Sec. 1031;

)U*

10.)

Conspiracy to interfere with civil rights and Deprivation of civil rights

under 42 U.S.C., Sec. 1985 and 1983;
11.) Abuse of power - inherent in U.S. Constitution and illegal by various
statutes.
21. Because President Trump deliberately with criminal intent engages
in the planks of terrorism described herein violates, at minimum, the
duties of the President of the United States under the Constitution of the
United States:
1.) Under Art. II, Sec. 1, the President takes the Oath of Office that
he will “...faithfully execute the Office of President of the United States, and
will to the best of my Ability, preserve, protect and defend the Constitution of
the United States.”
2.) Art. II, Sec. 3 states the President of the United States “...shall
take care that the Laws be faithfully executed...”.
3.)

Art. VI, the Constitution and the Laws of the United States

which shall be made in Pursuance thereof...shall be the Supreme Law of the
Land...”
22. Each member of Congress deliberately with criminal intent engage
in the planks of this terrorism described herein which violates at
minimum the duties of each member of Congress under the Constitution
of the United States:
1.)

Under Art. VI, each Congressperson takes an Oath “...shall be

bound by Oath or Affirmation, to support this Constitution...”
2.) Under Art. VI, the Constitution and the Laws of the United
States which shall be made in Pursuance thereof....shall be the Supreme
Law of the Land...”
3.) Failure to act under Art. I, Sec. 8 and failure to impeach under
Art. I, Secs. 2 and 3; Art. II, Sec. 1.

17,

POINT VII
23.

The District Court judge states Plaintiff is seeking "... monetary relief from

a defendant who is immune from such relief’. Plaintiff believes since Defendants
are acting both in professional and personal capacities, they can, at minimum, be
individually sued. She further believes monetary action can be taken, at
minimum, under 28 U.S.C. 1983 and 1985, Bivens and other statutes; however,
Plaintiff is requesting Plaintiffs attorney argue this and any other necessary
changes to Plaintiffs pleadings once he is allowed to confer with her.
REASONS FOR GRANTING THE PETITION and EXPEDITING SAME
24.

This Court is the court of last resort. And as two out of three branches

of the United States government are active participants in this terrorism it leaves
only the Judiciary specifically only SCOTUS to hear this case and use its
authority to help stop this terrorism. Petitioner has been denied access to the
Courts for the 30+ years of this terrorism because the lower courts believe this
case is “frivolous” or in the case of SCOTUS, Petitioner’s case is not correct
technically or is incorrect in some other fashion the five or so times Petitioner has
filed here in the past 2 years. (One can google Petitioner’s name or read the Order
of the District Court Judge for the Southern District of New York of April 27, 2020
to see some of the pleadings and/or outcomes for pleadings Petitioner has filed
over the past 30+ years.)

I 9

25.

All major national TV media, their guests including print media, are

participants in this terrorism thus the public is not notified of this terrorism in
order for them to become outraged and stop it.
26.

Most if not all federal law enforcement are involved as well as many

state government officials such as the Governors of FL, TN, NY etc.; some state
Attorneys General such as FL’s, TN’s; local law enforcement where Petitioner
resides, thus legitimate investigations and indictments have not been forthcoming
over the past 30 years, keeping this terrorism alive (violating at minimum
Plaintiffs 14th Amendment rights).
27.

There is reasonable probability more than four Justices will conclude

upon review that the actions of Respondents, named and unnamed, are erroneous,
that they are deliberate, willful, violent with intent to harm Petitioner, and are
unconstitutional and illegal.
28.

Further permanent irreparable harm to Petitioner will continue by the

24/7 violent rape and sexual assault by hundreds to thousands of terrorists daily
plus the other violent acts of terrorism such as forced isolation should this case
not be heard on an expedited basis by this Court;
29.

Respondents will not stop this terrorism if this Court refuses to hear

this case.
30.

Presidential hopeful Joe Biden (along with USAG William Barr; Senate

Majority Leader Mitch McConnell and many others presumably still in

K

government) are men who initiated this terrorism on 10/31/89; are violent and
dangerous...along with their involved families. Petitioner requests expedition of
this case so that appropriate action may be taken before the Presidential election
in early November 2020 which would further endanger Petitioner’s life should Joe
Biden unconstitutionally win.
CONCLUSION
31.

Petitioner respectfully requests the Court factor the following considerations:

A.) Petitioner’s brain is being violently raped; she cannot think, read or research
well..... particularly involving the incredibly emotional topic of her own important
case and again, finds all “believing” attorneys won’t help; thus Petitioner’s
understanding of the court’s legalese, procedures and documents is limited, thus
would annoy this Court and further deny Petitioner access to the courts.
B.) Petitioner found few cases to use as citations; Petitioner believes this case to be
one of a few; any such cases are possibly untried in the courts if victims survived;
32.

For the reasons stated herein, Petitioner respectfully requests this

Court reverse the District Court for the SDNY April 27, 2020 dismissal of her case
and review her case. Petitioner prays this Court:
a. Invalidate any Executive Order (or other instrument) and/or legislation
that violates the Constitution and/or U.S. laws in any way including preventing
Petitioner from conferring safely with her attorney, Mark J. Geragos, which violates
Petitioner’s Sixth Amendment rights to counsel; her right to face her accusers and

20

the right to the “evidence” against her. Her First Amendment rights are violated as
well by not allowing her to speak to her attorney of 3 years and numerous laws are
violated by Respondents’ said actions.
b. Invalidate any Executive Order (or other instrument) and/or legislation
that violates the Constitution and/or any U.S. laws in any way including preventing
Petitioner from conferring, interviewing with and otherwise speaking with
legitimate prosecutors specifically the Manhattan DA; SDNY; State of New York
which violates Petitioner’s First Amendment rights and violates many laws.
c.

Issue any stay or use other power afforded this Court to allow Petitioner

and her attorney, and the SDNY, State of NY, Manhattan DA to confer immediately
and BEFORE the other issues in this case are heard so that all matters related to
this terrorism are appropriately presented, argued and addressed. Such denials to
speak with prosecutors violate the Petitioner’s First Amendment rights and many
laws;
d.

Find Respondents’ actions of violently raping Petitioner’s brain,

sexually assaulting her; threatening to ensure Petitioner is “dead or behind bars”;
using TV media and their guests to rape and sexually assault her; slandering her;
making fun of her as she screams in terror and torture from being raped; using local
police and all other planks of this terrorism outlined herein, violate Petitioner’s
First, Fourth, Fifth, Ninth Amendment rights;

ai

e.

Incorporating the statements in “d.” above, find Respondents’ actions

violate Respondents’ constitutional duties outlined herein as well as many statutes;
f.

Use any powers this Court possesses to immediately stop all planks of

Respondents’ violent terrorism against Petitioner;
d. Grant any other relief this Court deems proper and appropriate.
Respectfully.
August 14, 2020

Mary] Jo Wejdrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

\i
o S--IH §
O'fCo T'-^-

m&
k
^

9,3,

CHARLES H. BARKER
MY COMMISSION #GG 143532
EXPIRES: January 15,2022
Bonded Thru Notary Public Underwriters

